 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-7873
Kenneth McBride y, Dushan Zat

(etitioner) (Respondent)

 

4 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
{Zi Please enter my appearance as Counsel of Record for all respondents.

(i There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

1 certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature_Ttyohug FP (heasan Jey
Date:. 202/

(Type or print) Name. Stephen R. Creason
ai. Os. O Mrs. Oj Miss

Firm_Office of the Attorney General

Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-6222

 

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kenneth McBride #219635
1946 W. U.S. 40
Greencastle, IN 46135
